No. 20-297

 

IN THE

Supreme Court of the Anited States

TRANS UNION LLC,
Petitioner,
v.
SERGIO L. RAMIREZ, individually and on behalf of all
other similarly situated individuals,
Respondent.

CERTIFICATE OF SERVICE

I, Brianne J. Gorod, do hereby declare that on March 10, 2021, as required by
Supreme Court Rule 29.5, I have served by first-class mail, postage pre-paid, the Brief
of Constitutional Accountability Center as Amicus Curiae in Support of Respondent

on counsel for each party to the above proceedings as follows:

Paul D. Clement Samuel Issacharoff

Kirkland & Ellis LLP 40 Washington Square South
1301 Pennsylvania Ave., N.W. New York, NY 10012
Washington, DC 20004 sil38@nyu.edu
paul.clement@kirkland.com (212) 998-6580

(202) 389-5000

Counsel of Record for Respondent
Counsel of Record for Petitioner Sergio L. Ramirez
TransUnion LLC

I declare under penalty of perjury that the foregoing is true and correct.
Executed on March 10, 2021.

  

Brianne JY Gorod
Counsel for Amicus Curiae
